<html>
<title> - IMPROVING THE NATION'S RESPONSE TO CATASTROPHIC DISASTERS: HOW TO MINIMIZE COSTS AND STREAMLINE OUR EMERGENCY MANAGEMENT PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   IMPROVING THE NATION'S RESPONSE TO
                CATASTROPHIC DISASTERS: HOW TO MINIMIZE
                        COSTS AND STREAMLINE OUR
                     EMERGENCY MANAGEMENT PROGRAMS

=======================================================================

                                (112-20)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-452                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman

TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,           Columbia
Arkansas,                            HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
STEPHEN LEE FINCHER, Tennessee         (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Christmann, Gary A., Commissioner, City of St. Louis Emergency 
  Management Agency..............................................    26
Fugate, Hon. W. Craig, Administrator, Federal Emergency 
  Management Agency..............................................     5
Hubbard, James, Deputy Chief for State and Private Forestry, 
  Forest Service, U.S. Department of Agriculture.................     5
Murphy, Brendan, Director, Grants Management, California 
  Emergency Management Agency, on behalf of Dayton, Mike, Acting 
  Secretary, California Emergency Management Agency..............    26
Rash, Rob, CEO and Chief Engineer, St. Francis Levee District of 
  Arkansas.......................................................    26
Shimanski, Charles S., Senior Vice President, Disaster Services, 
  American Red Cross.............................................    26
Weber, Michael, Deputy Executive Director for Operations for 
  Materials, Waste, Research, State, Tribal, and Compliance 
  Programs, U.S. Nuclear Regulatory Commission...................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Timothy H., of New York.............................    38
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Christmann, Gary A...............................................    42
Dayton, Mike \1\.................................................    47
Fugate, Hon. W. Craig............................................    56
Hubbard, James...................................................    79
Rash, Rob........................................................    86
Shimanski, Charles S.............................................    89
Weber, Michael...................................................    93

                       SUBMISSIONS FOR THE RECORD

Fugate, Hon. W. Craig, Administrator, Federal Emergency 
  Management Agency:

  Responses to questions from Hon. Jeff Denham, a Representative 
    in Congress from the State of California.....................    69
  Response to question from Hon. Richard L. Hanna, a 
    Representative in Congress from the State of New York........    75
  Responses to questions from Hon. Timothy H. Bishop, a 
    Representative in Congress from the State of New York........    76
U.S. Nuclear Regulatory Commission, responses to questions from 
  the Subcommittee on Economic Development, Public Buildings, and 
  Emergency Management...........................................    97

----------
\1\ The prepared written statement is from Mr. Dayton. Mr. Murphy 
  testified on behalf of Mr. Dayton at the hearing.

  [GRAPHIC] [TIFF OMITTED] T5452.001
  
  [GRAPHIC] [TIFF OMITTED] T5452.002
  
  [GRAPHIC] [TIFF OMITTED] T5452.003
  
  [GRAPHIC] [TIFF OMITTED] T5452.004
  
  [GRAPHIC] [TIFF OMITTED] T5452.005
  
  [GRAPHIC] [TIFF OMITTED] T5452.006
  


                         IMPROVING THE NATION'S
                  RESPONSE TO CATASTROPHIC DISASTERS:
                  HOW TO MINIMIZE COSTS AND STREAMLINE
                   OUR EMERGENCY MANAGEMENT PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
Room 2253, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. First, let 
me welcome our distinguished witnesses and thank them for 
testifying. The purpose of our hearing is to understand how 
prepared we are today, and what else Congress should do to 
enable you to perform your jobs successfully.
    I am confident that each of you will do everything within 
your power to save lives and reduce suffering when disaster 
strikes. Yet in 2005, we saw how a confused chain of command, 
failed communications, and a host of other problems could 
thwart the efforts of thousands of responders. Since Hurricane 
Katrina, much has been done to correct those problems. Congress 
rewrote the disasters laws, we put FEMA back together again and 
made it clear the administrator is responsible for managing 
disasters on behalf of the President. We expedited military 
assistance. The Red Cross revamped its disaster operations and 
will coordinate mass care operations. And we spent billions on 
planning, communications, and logistics at every level of 
government.
    According to the Department of Homeland Security's 
inspector general, FEMA has made moderate progress in most of 
the key preparedness areas. While this report is encouraging, 
there is significant room for improvement. The catastrophe in 
Japan is a stark reminder of how bad and unpredictable 
disasters can be. Japan essentially faces three major 
disasters: an earthquake, tsunami, and nuclear incident. Any 
one of these disasters would stretch our capabilities. But 
could we handle three at once?
    In my home State of California, and our vice chair's 
region, we face similar earthquake hazards and have several 
nuclear reactors. Nationwide there are several natural and 
manmade disaster scenarios that could result in tens of 
thousands of casualties and displace well over 1 million 
people. Are we ready for such an event? Are we even planning 
for the worst case scenario? And are we prepared to take the 
necessary steps after such an event to respond and recover 
quickly?
    While it's not possible to prevent most disasters, proper 
preparedness will save lives, minimize cost, and ensure our 
response and recovery is not bogged down in bureaucratic red 
tape. In addition to recommendations regarding our preparedness 
levels, the committee is interested in several specific areas.
    Could the Japanese nuclear disaster happen here? And are we 
ready to respond?
    Will the 2011 national level exercise for the New Madrid 
earthquake zone really push the system and reveal its 
weaknesses?
    Will the American Red Cross and FEMA be able to shelter 
over 1 million people?
    What are the Forest Service and FEMA doing to reduce the 
risk of catastrophic wildfires?
    Proper planning and preparedness is key. We must ensure 
before a catastrophe hits there is coordination at all levels 
of government. And to the extent there is red tape that can 
stifle response and recovery, we must address it now.
    I thank the witnesses for being here today to address these 
important issues. I would now like to recognize Ranking Member 
Norton from the District of Columbia for 5 minutes to make any 
opening statements she may have. Welcome.
    Ms. Norton. Thank you, Mr. Chairman. We are grateful to our 
witnesses for appearing before the subcommittee today to 
testify on the important and timely issue before us.
    We need look no further than the catastrophic events that 
shook Japan less than 3 weeks ago to ask whether the United 
States is prepared for such an attack here. The earthquake that 
shook Japan, measuring 9.0 on the Richter scale, sent a tsunami 
racing toward the Japanese coast, wiping towns and villages 
literally off the globe.
    With an earthquake or tsunami of this scale, would--while 
an earthquake or tsunami of this scale would represent a 
catastrophic disaster, the cascading events, including the 
crippling of a nuclear power--of nuclear power plants, and 
continuing radiation release, compel us to think--to rethink 
the scope of disaster that could occur in our own homeland.
    The tragedy in Japan presents us with a unique teaching 
moment to help us learn to better prepare for and respond to 
catastrophic disaster. While we will study these lessons for 
future disasters, our thoughts and prayers must first be with 
the Japanese people, as they struggle to overcome these triple 
calamities. Today we ask the necessary question. How can we 
improve the Nation's response to catastrophic disaster?
    Every since Hurricane Katrina exposed the Federal 
Government's unacceptable inability to respond to a disaster of 
unexpected magnitude, this subcommittee has performed vigorous 
oversight on steps the Federal Emergency Management Agency, or 
FEMA, should take to improve its planning and preparation for 
catastrophic disaster, as well as for efforts to mitigate 
potential damage.
    During the 110th and 111th Congresses, our subcommittee 
held hearing after hearing to ensure that FEMA would not repeat 
the failures seen on the Gulf Coast. I appreciate that Chairman 
Denham has chosen to continue this oversight, and I look 
forward to working with him on these critical issues.
    The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act was signed into law in 1988. The act, authorized 
by our committee, serves as the Federal Government's primary 
authority for addressing major disasters. Importantly, the 
Stafford Act recognizes that States and local communities, and 
not the Federal Government, have primary responsibility to 
address disasters and emergencies. The Federal Government acts 
to supplement the efforts and resources of States and of local 
and tribal governments, as well as disaster relief 
organizations.
    Yet it remains unclear whether the Stafford Act 
contemplates catastrophic disasters, even like Hurricane 
Katrina, or certainly like the threefold earthquake, tsunami, 
and nuclear meltdown currently unfolding in Japan. For the most 
part, the authority provided by the Stafford Act has provided 
sufficient--was sufficient to address all types of disasters 
and emergencies, natural and terrorist. But some have 
questioned whether the Stafford Act is sufficient for 
catastrophic disasters.
    In 2006 this committee sought to address these potential 
gaps by enacting the Post-Katrina Emergency Management Reform 
Act, enacted as title VI of the Department of Homeland Security 
Appropriation Act. The Post-Katrina Act defined a catastrophic 
incident as one that ``results in extraordinary levels of 
casualties or disruption severely affecting the population, 
including mass evacuations, infrastructure, environment, 
economy, national morale, or government functions in an area.''
    This definition provides the framework for how the Federal 
Government should plan for catastrophic incident. However, 
there remain questions about whether this is an appropriate 
trigger for catastrophic disaster. In fact, I chaired a 
subcommittee hearing in July 2009 that addressed this issue. I 
look forward to continuing to listen to this ongoing debate 
within the emergency management community.
    While we may not have settled on the best definition of 
catastrophic, we do know that one characteristic that 
distinguishes catastrophic disasters from other disasters is 
that the magnitude of a catastrophic event often has national 
impact, and that such disasters are complex, unusually large in 
their effects, hard to predict, and very expensive. We also 
know another catastrophic event will someday strike the United 
States. And we must be ready for that day.
    In September 2010 the Department of Homeland Security's 
inspector general released a report that addressed the issue of 
FEMA's preparedness for the next catastrophic disaster. The 
report provided a detailed analysis of the Nation's level of 
preparedness in 10 key areas. The report, in part, shared good 
news. FEMA had made progress in all 10 areas, and in 
particular, had made substantial progress toward improving 
emergency communications.
    However, the report also cited concerns about the lack of 
effective coordination between FEMA and State, local, and 
tribal governments, the need for updated information technology 
systems, to upgrade and integrate Agency-wide resources, the 
lack of experienced staff to handle the demanding workload at 
FEMA as States and localities are pressed in the aftermath of 
the great recession, and left without stimulus or other funds 
from the Federal Government, and insufficient funding to carry 
out the Agency's mission.
    While many look to FEMA to take the lead during disasters, 
we must remember that the heart and soul of FEMA's mission is 
to equip, train, and work with their State, local, and tribal 
partners, along with relief organizations that serve the 
country--that serve as the country's first responders in most 
disasters and emergencies.
    I very much look forward to hearing today from 
Administrator Fugate and others on steps FEMA has taken to 
address these shortcomings. I thank you, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Norton. I now call on Mr. 
Crawford for a brief opening statement.
    Mr. Crawford. Thank you, Mr. Chairman. I just want to take 
a brief opportunity to introduce a witness that will testify 
before this committee a little later today, Mr. Rob Rash. He is 
the chief executive officer and chief engineer of the St. 
Francis Levee District of Arkansas. The St. Francis Levee 
District, headquartered in West Memphis, Arkansas, serves 
northeast Arkansas, and covers 7 counties with 160 miles of 
mainline Mississippi River levees and 75 miles of St. Francis 
River tributary levees. These levees are a part of the 
Mississippi River and Tributees Flood Control Project, which 
contains a total of 3,787 miles of levees, along with other 
structures such as flood walls, floodways, flood plains, 
diversions, reservoirs, pumping plants, and every other proven 
method to prevent flooding from the 41 percent of the waters of 
the United States that flow to the Gulf of Mexico.
    Mr. Rash is a respected voice throughout Arkansas and the 
mid-South for his knowledge and expertise in flood control and 
prevention and emergency preparedness. Mr. Chairman, I hope 
that the wisdom that Mr. Rash has gained in working in the 
States can be applied to the Federal Government to improve our 
response to future disasters. And with that I yield back to the 
chairman. And I will fill in for him briefly.
    I would like to now recognize Mr. Carnahan for an opening 
statement.
    Mr. Carnahan. Thank you. I want to join my colleagues in 
welcoming this panel and the one to follow, thank Chairman 
Denham and Ranking Member Norton for putting this hearing 
together. It is very timely, given the events in Japan, but 
also in terms of our own preparedness. In particular when we 
have heard the descriptions of Japan being one of the most 
prepared countries for an earthquake-type event, I think it 
really causes serious pause for us to re-evaluate our own 
preparedness.
    I come from a region of the country in the Heartland, the 
St. Louis, Missouri, region, that, unfortunately, has been home 
to great floods, tornados, ice storms, droughts. And we sit on 
one of the largest fault lines on the New Madrid fault line 
that goes up and down the Mississippi River corridor. We are 
not prepared enough. We continue to hear concerns about 
interoperability, about having back-up systems in place. So we 
very much welcome the upcoming national exercise that is going 
to be conducted in the New Madrid seismic zone.
    I especially want to give a personal welcome to a witness 
on the second panel, our city of St. Louis emergency management 
agency commissioner, Gary Christmann. Gary, welcome. We are 
pleased to have you here today to be a part of this national 
conversation, but also to bring to light some of the local 
challenges that we face in our region.
    He is a career professional, has been involved working with 
hospitals, ambulance, public health areas, incident response 
teams. So we are very pleased to have your voice here to be a 
part of this debate. Thank you, and welcome. I yield back.
    Mr. Crawford. [presiding.] Thank you, Mr. Carnahan. Are 
there any other Members who would like to make opening 
statements?
    [No response.]
    Mr. Crawford. OK. Hearing none, then I would like to 
welcome our witnesses here today. Our first panel will be the 
Honorable W. Craig Fugate, the administrator for the Federal 
Emergency Management Agency; Mr. James Hubbard, deputy chief 
for state and private forestry, Forest Service; and Mr. Michael 
Weber, deputy executive director for operations for materials, 
waste, research, state, tribal, and compliance programs, U.S. 
Nuclear Regulatory Commission.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Crawford. Without objection, so ordered. Since your 
written testimony has been made part of the record, the 
subcommittee requests that you limit your oral testimony to 5 
minutes, and we will begin with Administrator Fugate. You may 
proceed.

TESTIMONY OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
 MANAGEMENT AGENCY; JAMES HUBBARD, DEPUTY CHIEF FOR STATE AND 
     PRIVATE FORESTRY, FOREST SERVICE, U.S. DEPARTMENT OF 
 AGRICULTURE; AND MICHAEL WEBER, DEPUTY EXECUTIVE DIRECTOR FOR 
 OPERATIONS FOR MATERIALS, WASTE, RESEARCH, STATE, TRIBAL, AND 
    COMPLIANCE PROGRAMS, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Fugate. Well, thank you, Mr. Chairman Denham and 
Ranking Member Norton, Vice Chairman, and the rest of the 
distinguished members of the subcommittee. Today we are talking 
about catastrophic preparedness. And that has a lot of 
different definitions and what it means to people. I think it's 
important that you see that we are not here by ourselves, this 
panel. There are a lot of different capabilities and resources 
within the Federal family. And so I want to talk about what 
FEMA's role is, the lessons we have learned.
    As the ranking member pointed out, with the Post-Katrina 
Emergency Management Reform Act, how we approach disasters is, 
I think, significantly improved than what we were doing with 
the previous tools we had. The Homeland Security Act, as 
amended by the Post-Katrina Emergency Management Reform Act 
reinforced FEMA's role. It clarified the mission of the Agency.
    But, more importantly, it recognized something that the 
ranking member alluded to, and that is, in waiting for disaster 
to occur, and waiting until locals are overwhelmed, and waiting 
until a governor has made a formal request to the President to 
declare a disaster, to active the Stafford Act, often times 
puts us too far behind a response. And this is particularly 
true when you have a large-scale event that occurs without 
notice. In waiting until you have assessed, and waiting until 
the local responders are overwhelmed, the Federal Government 
would often times find itself reacting to, rather than being 
proactive in that response.
    The Post-Katrina Reform Act clarified that, and said that, 
in absence of a declaration of a state of emergency, however 
when it is assumed that impacts would result in that, or at the 
direction of the President, FEMA could, with tasking 
authorities out of the disaster relief fund, assign missions to 
agencies, contract for vendors, and issue mission assignments 
to Department of Defense in anticipation of.
    I will give an example in real time. When the tsunami 
occurred--actually, the earthquake occurred--off the coast of 
Japan, the two tsunami warning centers for the United States--
one in Hawaii, one in Alaska--issued tsunami advisories and 
then ultimately warnings for areas along our islands and 
territories, State of Hawaii, and along the West Coast, 
including the Alaskan Aleutian Islands.
    At that point, upon those notifications, FEMA began 
activating the team. There was no formal request. There was no 
damage at that point. We knew that, based upon maps and work 
that had been done with our State partners along the West Coast 
and the well-exercised plan, unfortunately, in Hawaii for 
tsunami evacuations, that the governor of Hawaii had already 
activated his team, had started to order the evacuations of his 
areas, and the West Coast was evaluating the tsunami forecast 
and the impacts for that evacuation.
    We knew approximately the populations involved, and began 
mobilizing and moving resources out of our territorial 
warehouses in Guam, as well as in the Hawaiian Islands, and our 
warehouses on the West Coast, began moving supplies in 
anticipation that there may be evacuations and sheltering 
required for that population.
    This was all occurring in the early morning hours, and all 
based upon the authorities vested in us from Congress under the 
Post-Katrina Reform Act. We did not have a formal request. We 
did not have the disaster that had occurred. We were preparing 
for what potentially could happen.
    This has to be done, however, in partnership with our State 
and local partners, as well as our other Federal agencies. 
Because FEMA, as an entity itself, has limited resources, a 
bulk of our capabilities in this government are actually vested 
in our Federal agencies and our military. So we utilize those 
tools to respond.
    But there is another part of this that we have also taken 
to heart and that is that in supporting our States and their 
local governments, we often times have only focused on what I 
call a Federal-centric approach to problem solving. We have 
only looked at what government can do. This, unfortunately, 
leaves out a lot of resources, like our volunteer and non-
governmental organizations, like the American Red Cross, but 
also the private sector.
    When you look at what would happen in these type of 
catastrophic events, and you leave out the private sector, 
particularly the retail sector, it would be very difficult to 
imagine that you could go from a no-notice of event to getting 
supplies in quickly if we weren't leveraging the private sector 
that could get their stores up and get running.
    We have taken steps now to bring in the private sector into 
FEMA in a day-to-day basis at the National Response 
Coordination Center. We now have a representative, on a 
rotating basis, from industry focused on coordinating in real 
time the private sector with our response, so that we don't 
compete with the private sector at what they do best, but we 
focus on those gaps.
    And then, in my final minute, the last piece of this: 
personal preparedness. Why is it so critical, and why do we 
tell people to be prepared? Is it that we're saying, 
``Government can't get to you in time?'' No. What we're saying 
is those of us that can prepare and should be prepared for 
those things we know and those things that, again, may not give 
us warning. When we fail to prepare, who are you cutting in 
line in front of? The poor? The disabled? Infants and children? 
The frail elderly?
    This isn't about you are on your own, this is about we have 
to work as a team. And the public needs to realize the better 
prepared we are as individuals and families, the more we can 
focus on the most vulnerable populations and the most critical 
things of life-saving and life-sustaining activities, without 
having to have us compete with our most vulnerable citizens. It 
is part of what we call the whole of community.
    We must be prepared, as a Nation, to support our local 
responders and the governors, but more importantly, not compete 
with the most vulnerable citizens when we, as individuals and 
families, could have done a better job of being prepared. With 
that, thank you.
    Mr. Crawford. Thank you, Administrator Fugate.
    Mr. Hubbard, you may proceed.
    Mr. Hubbard. Thank you, Mr. Chairman and members of the 
committee. Wildland fire is a part of the responsibility in the 
Forest Service that I deal with, and I want to give you just a 
brief overview of our wildfire suppression activities.
    This very much is a community partnership with States and 
locals and including the volunteers, the tribal governments, 
the private contractors, and the Federal agencies, and the 
Forest Service, and the Department of Interior. And our 
priorities are dealing with life, property, and natural 
resource protection.
    What we are experiencing in the United States is, because 
of prolonged drought, is longer fire seasons. We are dealing 
with hotter, dryer weather. So we get larger fires that are 
more difficult to control. And we increase the complexity of 
that by the number of homes and people that are in the way of 
those fires, which is increasing all the time.
    One of the things that we have embarked on, though, that we 
think will help in this, at the direction of Congress, is to 
put together a cohesive wildfire strategy for the country. That 
is underway, and that involves dealing with those State and 
local partners on how we respond to fire, how we protect 
communities, and how we restore landscapes that cause threats 
to communities and to people. We will sort out those roles and 
responsibilities, and see where the best response should be, 
and how we can improve in this increasing complexity that we 
deal with.
    For this year, this fire season, it is underway. Oklahoma 
and Texas have experienced quite a bit of trouble. Georgia, 
Florida, as well. It's beginning in New Mexico, Arizona, and a 
little early in Colorado. Our preparedness levels are at a 
continuing level, so--and that will only be strengthened by 
this dialogue that is going to occur with this cohesive 
strategy.
    Federally, we have 16,000 firefighters ready to fight fire 
this year. That is a normal level for us.
    We also get involved a lot with FEMA. And, as Mr. Fugate 
pointed out, it's in the coordination and how we deal with the 
State and locals and how we involve them in our responses. We 
get involved through those mission assignments that the 
national response framework provides to us. Our primary 
assistance is in wildfire, but with the number of resources 
that we have that we can mobilize, in terms of engines and 
aircraft and people.
    We also serve in other capacities. We have a lot of 
specialists in our system, as well. So we can mobilize from 1 
to 10,000, if we need to. And that specialization and that 
skilled labor force is--becomes important, especially when we 
rely on the qualifications and standards that are consistent 
across agencies.
    Our command system is one that we share, too, with all 
those agencies. So we have an incident response command system 
that cuts across all of that and helps people to have a common 
response and an organized response.
    So, it comes down to being about the relationships and the 
working agreements that we have in place with the other Federal 
agencies and with the State, locals, tribes, and private 
contractors. All of that has been in place and functions quite 
well. We just have more of a problem that we have to address. 
And we think we are prepared to do that. Thank you.
    Mr. Denham. Thank you, Mr. Hubbard.
    And, Mr. Weber, you may proceed.
    Mr. Weber. Good morning, Chairman Denham, Ranking Member 
Norton, and members of the subcommittee. I am pleased to appear 
before you today to represent the United States Nuclear 
Regulatory Commission to discuss two aspects: the emergency 
planning and preparedness program for nuclear power facilities 
in the United States; as well as the protective action guidance 
that we recently issued in response to the events at the 
Fukushima Daiichi nuclear power plant station in Japan.
    NRC's primary mission, as you may know, is to regulate 
nuclear power plants, reactors, and materials and waste in a 
manner that protects public health and safety, and promotes the 
common defense and security.
    Emergency preparedness is a key element in our defense in-
depth philosophy, and that philosophy ensures quality in 
design, construction, and operation of nuclear facilities, 
requires redundant safety systems that reduce the chances of 
accidents from occurring, and recognizes that, in spite of all 
these preparations, unforeseen events can occur. Through 
emergency planning and preparedness, mechanisms are in place to 
protect the public health in the unlikely event that these 
other measures fail.
    The NRC emergency preparedness and planning regulations are 
extensive and require licensees to develop comprehensive and 
effective emergency plans as a condition of their license to 
operate.
    Nuclear power plant operators are required to provide 
extensive emergency response training to emergency plant 
workers. For example, they are required to provide severe 
accident management training to control room operators, and to 
conduct a rigorous drill and exercise program. The NRC inspects 
licensees to ensure that they are meeting these requirements, 
and monitors their performance.
    To form a coordinated system of emergency preparedness and 
response, the NRC works with licensees, other Federal agencies, 
State, tribal, local responders and officials, and, of course, 
first responders. The program includes an every-other-year full 
participation exercise that engages both on-site and off-site 
response organizations, as well as the Federal Emergency 
Management Agency. And we work with FEMA to evaluate the 
quality and the conduct of those exercises.
    NRC resident inspectors also observe licensee on-site 
emergency drills and exercises. So it's safe to say that over 
the 30-plus years of operating experience with 140 operating 
nuclear power plants in the United States, there have been 
thousands of drills and exercises in response to both abnormal 
and emergency conditions.
    For planning purposes, we define two emergency planning 
zones, or EPZs, around nuclear power plant sites. The first 
zone is called the plume exposure pathway, an area that covers 
the 10-mile radius in the vicinity of the nuclear power plant. 
This area would require the most immediate protective actions 
in the event of a severe emergency causing a large-scale 
release. Planning for this area is comprehensive, and includes 
consideration of protective measures for members of the public 
at very low-dose levels, such as evacuation, sheltering, and 
administration of potassium iodide, as appropriate.
    A second emergency planning zone is the ingestion pathway 
EPZ, and this covers a 50-mile radius around each plant to 
protect against potential lower level, longer term risks from 
ingestion of contaminated food, milk, and water. The 
comprehensive planning in both the 10- and the 50-mile EPZs 
provide a substantial basis for expansion, if necessary, in 
response to the emergency.
    Let me now address NRC's protection action recommendations 
that we made recently for U.S. citizens in Japan to evacuate 
out to 50 miles from the Fukushima Daiichi nuclear power plant 
site. That decision was based on the best available information 
we had at the time. NRC began monitoring of the event with a 
tsunami warning that was issued for Hawaii and territories in 
the West Coast of the United States early that morning. In 
order to provide timely information to the U.S. Ambassador to 
Japan, and to best protect the health and safety of U.S. 
citizens in Japan, we based our assessment on conditions as we 
understood them.
    This site has six nuclear power plants, and four of those 
plants continue to face extraordinary challenges. Units one, 
three, and four appear to have suffered significant damage as a 
result of hydrogen explosions. Unit four was in a refueling 
outage, and so it recently transferred spent fuel into its 
spent fuel pool. If the water was drained from that pool, it 
would have posed a risk of overheating that fuel, and another 
large-scale release. Radiation monitors were showing very high 
levels of radiation at the plant site, which would pose 
complications for the plant crew in returning to stabilize the 
reactors, and there were off-site readings indicating fuel 
damage was occurring.
    Since communications were limited and there was a high 
degree of uncertainty, it is difficult to accurately assess the 
radiological hazard. However, we conducted calculations to 
evaluate the proper evacuation distance, and we used 
hypothetical but not unreasonable estimates of fuel damage, the 
containment, and other release conditions. These calculations 
demonstrated that EPA's protective action guidelines could be 
exceeded at a distance of 50 miles from the site if a large-
scale release occurred from the reactors or the spent fuel 
pools.
    We understood that some of our assumptions were 
conservative, but we believed it was better to err on the side 
of protection, especially in the case of a rapidly 
deteriorating condition. Acting in accordance with that 
framework, and using the best available information we had, NRC 
determined that an evacuation out to 50 miles for U.S. citizens 
was the appropriate course of action, and we made that 
recommendation to the other government agencies, including the 
ambassador.
    This concludes my testimony. I appreciate the opportunity 
to appear before you today, and I would be happy to answer 
questions.
    Mr. Denham. Thank you, Mr. Weber. I will now recognize each 
Member for 5 minutes. We will most likely have time for a 
second round of questioning. So I would ask each Member to keep 
it to--their question to 5 minutes.
    First question I have, Mr. Fugate, the whole world is 
focused on Japan right now, and the devastation that we have 
seen right now. Let's assume a scenario like the one in Japan 
occurred in the United States. There is a massive 9.0 
earthquake in California, a tsunami followed by severe floods, 
and the nuclear reactions which are near the coast are severely 
damaged. Millions of people are displaced, thousands missing, 
no shelters or supplies in the immediate area. Walk us through 
the type of response that we could expect to see from FEMA and 
other organizations as--dealing with this type of catastrophe.
    Mr. Fugate. Mr. Chairman, I would eat up all your 5 
minutes. I'm going to try to be succinct, and probably want to 
do a written response in more detail. But just a thumbnail.
    We recognize--and I think what is happening in Japan at the 
nuclear power plant is, often times in the media, overshadowing 
the actual impacts of the tsunami, earthquake, and the deaths 
that occurred, and the impacts to the infrastructure and 
local--and the prefectures, which are the equivalent of States.
    This is what you call a maximum event. I think this is, 
when people talk about catastrophic disasters, what we see. And 
what I found in my profession was the tendency to plan for what 
we were capable of, and then place these in the too-hard-to-do 
box. As Arlin used to say, this was the hurt locker. You put 
things in here that you couldn't deal with, and you come back 
later.
    We are trying to change that at FEMA. In fact, our most 
recently released strategic plan, rather than talking about 
being prepared, we put numbers against it. And this was 
actually in production prior to the tsunami earthquake, nuclear 
power plant tragedy. And what it showed was we were looking at 
these kind of numbers.
    What we are trying to do is move away from being so 
scripted around a specific scenario, and really start looking 
at, if you looked at the worst case maximum events that occur 
from earthquakes to terrorism to hurricanes, what do the big 
numbers look like? And it actually closely follows what we're 
seeing in the tsunami. And so the numbers you're throwing out 
there is what we have to plan against. And this will require 
national effort.
    Again, what we are finding is these would definitely 
overwhelm our locals. Often times they may become casualties in 
the impact. States would be severely stressed. This would 
require a Federal-supported response, but also pointed out the 
need to incorporate in the whole deal.
    The private sector has got to be integrated into these 
plans, because where they can get their facilities up and 
running, we need to be focused where they cannot. We need to 
bring in a lot of different players, such as the U.S. Forest 
Service, who may not be fighting fires, but may be running 
staging areas or base camps, or helping us assist local 
governments in managing the complexity of these disasters.
    And we also have to stay focused on a very short timeframe. 
The first 72 hours are the most critical in these disasters to 
save lives. We are not going to be able to wait for 
assessments, we're not going to be able to wait for clarity. We 
are going to have to respond as if it is as bad as you thought 
it could be, and then deal with the most pressing issues in the 
order of very focused, get into the areas, secure it, rescue, 
start meeting those basic essential needs, and ultimately set 
the stage for the decisions that may be required. If we cannot 
get resources to people fast enough, we may need to start 
taking people to where the resources are.
    And so, this planning is based upon that maximum of 
maximum, looking at not just a scenario, but looking at 
aggregating out these types of disasters, and then going back 
to how do we build a national capacity. This is going to 
require a lot of mutual aid from States that aren't impacted. 
This is going to require a lot of assistance that would not 
normally be just federally directed or federally managed 
resources.
    And so, as you point out, that coordination and building 
this on the front-end--what we call planning for real--is one 
of the keys that we take away from this, and essentially has 
been validating what we're trying to do in FEMA now to plan for 
these types of scenarios, sir.
    Mr. Denham. Thank you. And I will look forward to a more 
detailed response. I know it's a huge question. But just 
quickly, in these last few seconds here, how prepared are we, 
if we had millions of people displaced?
    I mean, nationally, the--obviously, a different scenario 
for different States. But I mean, if you could, give us a broad 
overview of----
    Mr. Fugate. We are much better prepared than we were in 
Katrina. But I think this is the lesson learned. You're going 
to have to make a very quick decision that won't be necessarily 
popular with local officials, even State officials. It 
sometimes is better to take people to where resources are, out 
of an area, than try to bring resources into that area.
    So, part of this is looking at, again, evacuations that 
won't be temporary, they may be longer term. Looking at how you 
then do this--and we've worked on this with host States that 
may not be impacted by the disaster, but would need Federal 
assistance to do sheltering operations, so we worked on 
sheltered populations outside of that.
    A lot of this work, you know, was focused on the hurricane 
scenarios. We are trying to move this into New Madrid and the 
other earthquake scenarios where, again, it may be that you 
cannot get resources in fast enough. You're going to have to 
move people to where the resources are. This is one advantage 
we have in these types of events. We are such a large country 
that we do have a lot of resiliency, just because of the 
geographical separation of key resources. So it's unlikely we 
would have a situation where one part of the country would be 
so overwhelmed that the other parts of the country wouldn't be 
able to provide that assistance.
    Mr. Denham. Thank you. Now I recognize Ms. Norton for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman. Mr. Weber, how many 
nuclear plants in the United States sit on or near fault lines, 
and how many are located on the coast near to areas subject to 
tsunami?
    Mr. Weber. All the nuclear power plants in the United 
States are near faults. Faults are----
    Ms. Norton. How come?
    Mr. Weber. The point is that----
    Ms. Norton. I mean you must have been looking to locate 
them on fault lines.
    Mr. Weber. No, ma'am. They are sited where they're needed 
for providing the electrical power. But faults and seismic 
activity is one of the external events that is considered in 
the design of the nuclear power plant to ensure that, should a 
large earthquake occur, the plant would remain in a safe----
    Ms. Norton. Would you locate such a nuclear plant on a 
fault line today?
    Mr. Weber. There are faults throughout the United States.
    Ms. Norton. Well, would you locate a nuclear plant on a 
fault--on or near a fault line today? I repeat my question.
    Mr. Weber. In siting a nuclear power plant, that is one of 
the things we specifically look at. But not just seismic 
activity. We also look at other natural hazards.
    Ms. Norton. So you would or would not, Mr. Weber? I have 
only so much time, sir.
    Mr. Weber. You would take faults into consideration in 
siting a nuclear power plant.
    Ms. Norton. So the--so you--have you taken them into 
consideration before?
    Mr. Weber. Yes.
    Ms. Norton. So you're not doing anything different from 
what you did before, even after the Japan catastrophe.
    Mr. Weber. Even in low seismic areas there are faults.
    Ms. Norton. I didn't ask you if there were--I asked you 
would you build or would you authorize the building of a 
nuclear plant on a fault line, and your answer is yes, you take 
into account, and that is a very troubling answer. What would 
you do to mitigate potential hazard of a nuclear plant located 
on a fault line, or near a part of the coast susceptible to 
tsunami?
    Mr. Weber. We would make certain that if there were an 
earthquake on that fault, or faults near the plant, that the 
plant would remain safe. Otherwise, we would not----
    Ms. Norton. How would it remain safe? You know, that is 
what they thought in Japan.
    Mr. Weber. Because the site is specifically designed to 
protect against----
    Ms. Norton. So was that site. Mr. Weber, I am going to go 
on to Mr.----
    Mr. Weber. OK.
    Ms. Norton. All you have done is to leave me with really a 
set of questions that astonish me. I would have thought that 
after this disaster you would say that there were some steps 
that you are in the process of taking to mitigate the effects 
of disasters. Are there any such steps?
    Mr. Weber. We are----
    Ms. Norton. Steps after Japan?
    Mr. Weber. Yes, ma'am. We are taking both a near-term and a 
long-term review of our existing safety program. We are 
conducting a 90-day review, which will be followed by a longer 
term review. The purpose of that is to learn what we can from 
the experience in Japan, and to specifically look at whether we 
need to change our regulatory program to ensure that, in light 
of what we have learned from----
    Ms. Norton. When is that review due to be completed?
    Mr. Weber. The first part of that is due within 90 days of 
last week, and the second review is due within 6 months of the 
completion of the 90-day----
    Ms. Norton. Would you make sure that a copy of that review 
is sent to this committee, to its chairman?
    Mr. Weber. We can do that.
    Ms. Norton. Mr. Fugate, when is the disaster relief fund 
due to run out of money?
    Mr. Fugate. Based upon the continuing resolutions in 
funding, we are sitting at a little over $1.1 billion in the 
current fund. We are also in the process of looking at open 
disasters and replenishing that. And, based upon that, all 
things being equal, May/June timeframes look like we may get 
close to what we would call immediate needs funding, where we 
would drop under $1 billion. And we would then look at 
reductions in certain activities, most principally hazard 
mitigation and certain public assistance. It would not affect 
the initial response or individual assistance. But there is not 
a hard, fixed date based upon what we're doing right now.
    One of the things you have directed and requested us to do 
is go back and close out old disasters. In doing that, we are--
last year we did about $2 billion that were able to go back 
into the funds that were de-obligated from missions from 
previous disasters, most notably the Katrina-Rita-Wilma 
timeframe.
    So, it's not a fixed date. And we will have a better idea 
as we get clarity on the current budget, and also on where 
we're getting these dollars to come back. But we look at that 
$1 billion mark as the point at which we would have to look at 
whether we implement immediate needs funding----
    Ms. Norton. And you are how close to that now?
    Mr. Fugate. It is over $100 million, but that is based upon 
the continuing resolutions that we get incremental funds coming 
in, and we also are getting money back from disasters where we 
are closing out completed missions. And as you de-obligate 
those funds and put them back in, it is bringing that fund back 
up. We are holding it at kind of a--we are--as fast as money is 
going out, these dollars are coming back in, keeping us above 
that level.
    Ms. Norton. Mr. Fugate, let me see where we are on the old 
concern of this subcommittee and committee on the existence of 
the so-called principal Federal officer and the Federal 
coordinating officer.
    Everyone believes that one of the causes of the Federal 
Government's failures in Japan was the placement of FEMA in the 
Department of Homeland Security, such that the Department 
insisted upon a--the dual existence of something they called a 
principal Federal officer when throughout the history of FEMA 
there had been one chain of command and it was the Federal 
coordinating officer, and there was no confusion about who was 
to be in charge.
    This is what happened when we layered up. We didn't expect 
this to happen. And there was bipartisan concern on this 
committee that you had--that the Agency had marginalized the 
person who was supposed to be in charge, who is supposed to 
know most, the Federal coordinating officer.
    Now, I understand you have said that you would no longer 
appoint a principal Federal officer to compete with the Federal 
coordinating officer. The Federal coordinating officer is a 
statutory officer. This other thing was thrown in by the 
Department of Homeland Security, and messed up--there is no 
question, messed up--the Gulf Coast. It is hard enough. But 
when two captains are running around trying to guide the ship, 
you really do have a disaster, a bureaucratic disaster on top 
of a natural disaster.
    Now, I note, however, that the national response framework 
has not been updated to make clear that in the event of a 
disaster there is chain of command, there is one person in 
charge, and he is the Federal coordinating officer. Why 
hasn't--why isn't that reflected in that plan which we look to 
to see how you would operate?
    And does this mean that this commitment about the PFO, or 
the principal officer and the Federal officer, is in limbo?
    Mr. Fugate. The short answer is--and I will read the 
statement again, because, as I did last time, I want to make 
sure it is--I am completely right on this. And this is from the 
Secretary.
    ``The Department has made the decision not to appoint 
principal Federal officials for''----
    Ms. Norton. Just a minute. I want to stop you right here.
    Mr. Fugate. Yes.
    Ms. Norton. I am asking you about the national response 
framework. You know, don't read back to me the statement that 
you gave me. I understand. And I, myself, said that you, 
yourself, do not intend.
    My question is you have a national response framework. Your 
State and local and tribal officers look to it to see how you 
operate and how you will operate in their area if there is a 
tsunami or an earthquake. Why doesn't the national response 
framework say that there will be a Federal coordinating 
officer, as the Stafford Act mandates, in the event of a 
catastrophe in your area?
    Mr. Fugate. The simple but probably unacceptable answer is 
we are in a rewrite and just have not stricken that as we go 
through the rewrite for a new updated----
    Ms. Norton. So you do intend to make clear that only the 
Federal coordinating officer in your area, wherever you are in 
the United States, is in charge. That is who is the command, 
that is who we will look to.
    Mr. Fugate. Yes, ma'am.
    Ms. Norton. I wish you would get that in--do your editing. 
And let me ask you when that editing will be complete, please.
    Mr. Fugate. That will be--we will respond back to that, but 
that is being updated, and that is in part of the revisions. It 
just has not been finalized to go back out for publication.
    Ms. Norton. Thank you, Mr. Fugate.
    Mr. Denham. Thank you, Ms. Norton. Just to clarify, when 
will the review be done?
    Mr. Fugate. I will need to get back on the timing of that. 
We currently have it in a rewrite. And I will have to get back 
on the timing of that when the--part of this, too, is to engage 
our local and State partners and tribal partners in these 
rewrites. So we are trying to avoid what we used to have, which 
we'd write it and send it out and say, ``What do you think?'' 
We are trying to engage people as we are going through the 
rewrite, to make sure we are capturing the lessons learned and 
bringing this up to the most current operational guidance.
    Mr. Denham. And as a freshman here I am not familiar with 
the timelines. Are we talking 1 month, 1 year, 10 years?
    Mr. Fugate. Not 10 years. But as I found coming from the 
State, moving at the speed of government is somewhat 
frustration. This is a process that has been ongoing now for--
it is not a 10-year project, but I would really like to be able 
to get back to you on this one, because I think it is basically 
a contract to update, and that process I would have to be very 
specific about timeframe. I think we are looking at this year 
to get the drafts back out and start working from it, but I do 
not know when we would have the final document that would be 
published.
    Ms. Norton. Would the gentleman yield? I think the 
chairman's question is well placed. This was--it was very 
frustrating for the subcommittee to even get the national 
response plan.
    And, Mr. Chairman, I am very concerned at this--the open-
endedness of this, especially in light of the Japanese triple 
disasters.
    Mr. Fugate, don't you think, in light of the chairman's 
question, you should set a date and should respond to him 
concerning when you expect this to be done? There is great 
concern in the country. And we should be able, after this 
hearing, to give some sense to the American public that there 
are certain things we are about.
    Mr. Weber, you know, astonished me that he said nothing has 
changed, in effect. And you are dealing with a response plan 
that the whole Nation looks to, and with a kind of open-ended 
relaxation that will not put people at ease after Japan who 
live on fault lines which Mr. Weber thinks is, you know, just 
the way it is.
    Mr. Fugate. Well, I wouldn't want to give the impression 
that that document is the only document that we use to make 
these decisions and plans. It is more of a codification of the 
actual framework document. We have made progress.
    I would also point out--that was in the chairman's 
statements--is the New Madrid earthquake exercise is coming up 
this May. And we want to be able to incorporate lessons learned 
there. We are taking that exercise to heart to take it to the 
point where we want to see where the failures are. We are not 
going to merely exercise to what we're capable of. We want to 
take this to where do we see the failures. And part of that is 
to come back and look at national response framework and go, 
``Are these things that are structural in how we're laying out 
the team?''
    This is what the national framework essentially does, is 
lay out the team. It doesn't tell you how you do stuff, it lays 
out the team. So are there issues with that? Are there issues 
with the resources and how you do resource allocations? Or is 
it an issue in training and personnel?
    So, I would prefer to get back in writing about timeframe. 
But also understand that we are also looking at the national 
response framework and the object of NLE11. What do we see 
there? Does that structure need any additional changes, other 
than what we already know? So that timeline is, again, trying 
to incorporate the lessons we have been learning through these 
disasters, as well as looking at NLE11.
    But I would also remind people it is not defining that we 
would wait for that update to change anything. It really is 
focused on how is the structure of the team built, and how it 
works in a disaster.
    Mr. Denham. Thank you, Mr. Fugate. We would like to see a 
formal timeline, this committee would.
    As well, I do also want to confirm from Ms. Norton's 
statement you have no intention--you are committing to us that 
there will be no appointment of a PFO?
    Mr. Fugate. Well, a PFO is not appointed by the FEMA 
administrator. But the Secretary has reassured us, and she has 
put it in writing, that she does not intend to appoint 
principal Federal officials in a Stafford Act declaration.
    And to amplify this, Mr. Chairman, and for the ranking 
member, in the Department of Homeland Security's support and 
USAID response to Haiti, the incident lead for our team was 
actually a FEMA leadership position. So I think it is 
recognized both within DHS that we do have capable leadership.
    The Agency has turned to us for non-Stafford Act assistance 
in lead agencies. And the Secretary has reaffirmed that she 
does not see the need to bring in, in these types of Stafford 
Act responses, outside entities, but depend upon the FEMA 
leadership and the Federal coordinating officer to coordinate 
that response in support of a governor.
    Mr. Denham. Thank you. Thank you, Mr. Fugate. Mr. Fincher?
    Mr. Fincher. Thank you, Mr. Chairman. And thank you guys 
for being here today. Our hearts and thoughts and prayers go 
out to the folks in Japan. Just catastrophic. It is just hard 
to explain.
    I want to be careful not to put the blame as much with what 
has happened in Japan on the earthquake as the tsunami. That is 
what caused the power failure to cool the nuclear reactors. But 
at the same time, I think it is a gut check for all of us--and 
you guys, as well--to do the best job you can at having a clear 
path, a guided response, working with the States, making sure 
that you have a clean chain of command, that the right hand 
knows what the left hand is doing.
    But it is a disaster. What happened in Japan was a 
disaster. I live in a part of the State of Tennessee, where we 
live on the New Madrid fault. Reelfoot Lake was created back 
many, many years ago by a massive earthquake. So we are waiting 
for something to happen. But at the same time, you can only do 
so much preparing for a disaster. But you have to do your part.
    My question is last Congress you testified that FEMA would 
conduct review of its policies and regulations as they relate 
to response and recovery. As you know, the Stafford Act 
provides FEMA with broad authorities. However, as we saw in the 
recovery from Hurricane Katrina, the bureaucratic red tape 
found in regulation policy significantly slowed the process.
    Where are you in that review, and what changes do you 
expect to occur from the process?
    Mr. Fugate. Thank you for a chance to come back to that. We 
have started the process--we actually were bringing in State 
and locals, as well as our subject matter experts in doing what 
we call a bottom-up review. We found that we were not being 
revolutionary, we were being evolutionary. So we have decided 
that we cannot do that without dedicating some full-time staff 
to that process.
    But what we have done--and I think we demonstrated this in 
the Tennessee floods--is we have to have a balance between 
speed and accountability. So in the individual assistance, 
where this became a huge issue in Katrina and other disasters, 
where we could not get funds out fast enough and we would 
literally find ourselves not able to make sure we were 
determining eligibility prior to administering funds, in the 
Tennessee floods we put about $100 million in the hands of 
eligible applicants that had a home inspection done within days 
of their request for assistance in those floods with no notice. 
If you remember, we started that weekend, and it was flooding. 
And by Monday, the governor had a request to the President, we 
had a declaration, and we were providing assistance by that 
weekend to folks that had been flooded.
    So, we have been taking to heart looking at the flexibility 
inherent in the Stafford Act, and have began going back through 
a lot of these procedures that are not in the Stafford Act in 
the CFR, and questioning why they exist, eliminating those that 
are not relevant, but putting an emphasis on speed, but not 
haste, in doing these projects. So this is an ongoing 
evolution.
    We have already been successful in some areas. An area of 
note, we have clarified for federally recognized tribes that 
they can be an eligible applicant, as a grantee, after a 
governor has requested a disaster declaration. This is key to 
the sovereignty of those tribes and, again, was done internally 
to our policy reviews, where there was not a conflict in the 
Stafford Act, but we had that flexibility inherent to that, in 
order to do that.
    Mr. Fincher. Again, we go back to the Gulf oil spill, how 
terrible that was. I think that no one wants to destroy the 
environment, that we need to make sure that we are safe with 
our energy, but also, at the same time, that if you do not 
operate and follow the law, you do pay a penalty. But again, we 
need to be steady, while careful, and do a good job. And I do 
appreciate your comments to that, guys. Thank you. I would 
yield back.
    Mr. Denham. Thank you, Mr. Fincher. Mr. Barletta, you are 
recognized for 5 minutes.
    Mr. Barletta. Mr. Weber, do you anticipate any major 
impacts of the radiation from Japan reactors on the U.S.? I saw 
some reports showing certain States experiencing low-level 
effects from the Japan reactors, Pennsylvania being one of 
them, my home State. So I wonder if you could talk about that?
    Mr. Weber. Certainly. We do not expect to see harmful 
levels of radiation in the United States, and that includes the 
Territories, Hawaii, Alaska, Aleutians. We are detecting trace 
levels of contamination from the releases from the Fukushima 
Daiichi emergency. And that is expected. And we are working 
within the Federal community to get data from the nuclear power 
plants--which may be some of the data that you are referring 
to--to share that, so that it can be integrated with other 
information taken around the United States, including 
monitoring data from the Environmental Protection Agency, to 
provide confidence to the American public that they are not at 
risk from those releases.
    Mr. Barletta. So there won't be--you don't anticipate any 
effects in water and rain----
    Mr. Weber. We are seeing elevated levels in rain, for 
example. But those levels are still at a very small amount, so 
that it is not posing a risk to U.S. citizens.
    Mr. Barletta. And to follow up on Ms. Norton's question, 
how at risk are our nuclear power plants in the United States 
to the type of situation that occurred in Japan?
    Mr. Weber. We are confident that the operating nuclear 
power plants are safe, and that is safe from earthquakes, safe 
from tsunamis, and other external hazards--hurricanes, 
tornadoes. That is all part of what we look at before we 
license a plant to operate.
    However, having said that, we are taking a close look at 
what is actually occurring in Japan, so that we can learn from 
that experience. At NRC we practice continuous improvement. So 
we do not want to blow off a significant event like occurred in 
Japan. We want to learn from that, and continue to improve our 
programs.
    Mr. Barletta. Thank you. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Denham. Thank you. We will now start our second round 
of questioning. The first question I have again, Mr. Fugate, I 
am concerned about our planning. And there are obviously some 
things that are unpredictable, have become a bigger challenge 
for planning. Nobody could have planned what has happened--the 
catastrophe that has happened in Japan.
    But here in the United States we have the opportunity to 
plan for--you know, right now in California, I mean, we are 
going to see a huge amount of flooding this year we are 
predicting, because we just--we do not build the water storage 
facilities or the conveyance facilities, and you have a huge 
amount of snowfall this year, and now all of a sudden we are in 
normal 70-, 80-degree temperatures in California.
    Can you explain to me some--the planning that you do, based 
on some of the risk assessments from other departments?
    Mr. Fugate. Well, Mr. Chairman, as you point out, some 
risks are dynamic. They change seasonally, they may change 
because of certain climate shifts that we see that we are going 
from drought into a very wet period right now in California.
    We utilize our regional offices. We have 10 FEMA regional 
offices with a regional administrator and a team that are 
empowered to work closely with the States to plan for these 
changing threats as the hazards increase or decrease.
    And so, Nancy Ward, our regional administrator in region 
nine, and her team worked with the State of California, 
California Emergency Management Agency, to look at--and again, 
California, because of the history of disasters, has a rather 
robust system of responding to disasters. So what we look at 
are where do they anticipate gaps or assistance that they would 
require, and plan that based upon this threat.
    We have been working on this actually a little bit more 
aggressively, because it was earlier in the Midwest and upper-
Midwest Red River, where we already set up an incident staging 
base and moved supplies up there. Yet we have still not seen 
significant flooding, we are just in a ready mode.
    So, these are the kind of things we do when we see a hazard 
that is increasing, and work with the States, what we try to 
identify--what would they see as shortfalls, particularly from 
the standpoint of commodities or other resources that we need 
to move into an area? And then we would set up, in coordination 
with the State, initial staging bases, moving supplies in and 
getting ready for that.
    Again, with some of these threats you can actually see that 
changing. So we do what we call, you know, incident action 
planning with the State, and look at this kind of a real-time 
event of where do they see gaps, what do they see are issues, 
where do we need to go ahead and move or get resources ready so 
that if they are needed we are not starting from, ``Oh, it is 
flooding, what do you need?''
    Mr. Denham. Thank you. And right now, obviously, with the 
$14 trillion debt, you know, the cuts that are coming out here 
are very large. And we expect to continue to be looking at the 
2012 budget with a very critical eye.
    I imagine that FEMA, as you look at your budgets, you are 
looking at ways that you can save money, as well. Do you ever 
do any type of budget forecasting that would say--you know, as 
you get questioned about your budget, well, we could reduce 
FEMA expenditures if we built a levee, if we built a new water 
storage, if we managed our forests better?
    Mr. Fugate. It goes to the question of investing before 
disasters happen, in mitigation and other activities, to buy 
down, literally, the risk of this country. The challenge is 
because there are so many areas, and you cannot always 
predetermine where those best investments would occur, it has 
not always been able to come back and focus exclusively on 
prevention and mitigation without having the capability to 
respond to large-scale catastrophic disasters. So you have to 
have a balance.
    I think the way you become cost effective is to look at a 
very simple idea, and that is do not compete with the private 
sector and what they do every day, and look at how, when a 
disaster occurs, we can maximize what they do so we expend our 
Federal dollars in those areas and gaps that would occur in the 
response.
    But I think it is that balance between where we can in 
future development, future growth, mitigate those risks, and 
look at how, through continuing programs, we can reduce that 
risk in those existing areas, whether they are in a flood 
plain, or whether they are in an earthquake-prone area, that 
building codes and other tools can help reduce that risk for 
future disaster.
    Mr. Denham. Thank you. And Mr. Hubbard, what type of 
coordination exists when you do have multiple disasters hitting 
us at once? We have an earthquake which sets off a forest fire. 
What type of coordination do you have with FEMA and other 
agencies?
    Mr. Hubbard. Our coordination is primarily aimed at 
responding to fire. And we have an extensive network to do 
that. But when FEMA gives us a mission assignment to help them 
in any other way, we divert the resources to do that, if we are 
able to.
    Mr. Denham. Thank you. And one of the challenges that has 
come up in my district as we have had forest fires in the past, 
you end up with a lot of trees that are burnt and should be 
harvested so that we do not see another fire come right beyond 
that. Are we working to--can you give me any type of assurance 
that we are working to mitigate this from happening in the 
future?
    Mr. Hubbard. One way or another, landscape restoration is a 
key to avoiding future risks to communities and to people and 
to natural resources. So, our restoration efforts are very much 
aimed at reducing that risk where it exists and it threatens 
the most.
    So, our assurance is that that is a priority for us. And we 
will do as much of it as we are able.
    Mr. Denham. Well, I mean, ``as much of it as we are able'' 
does not give me any sense of security. Do we expedite permits 
when that happens?
    Mr. Hubbard. We go through our--each national forest goes 
through its normal process for environmental clearance, and 
that is still the same.
    What we try to do with additional resources that we might 
have for hazard reduction or landscape restoration is to go 
into those areas and remove material, even if we do not have 
commercial market for it.
    Mr. Denham. So----
    Mr. Hubbard. We do that on a priority basis.
    Mr. Denham. So is it expedited? Are there ways to cut 
through the red tape so that we do not have a second natural 
disaster right beyond that?
    Mr. Hubbard. Where the threats are high enough, and we rate 
it as a high-enough priority for us to do the work ourselves on 
Forest Service land, yes.
    Mr. Denham. And what about partnering with private 
individuals that can come in and help us to----
    Mr. Hubbard. That is where--when we can contract it, and we 
are the administrator of the contract, yes, we have some 
latitude. Where we have to operate through a salvage sale or a 
timber sale, the normal environmental clearances are in place.
    Mr. Denham. Thank you. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. Mr. Fugate, I know 
that FEMA was of assistance in Haiti. Have you been of any 
assistance in Japan?
    Mr. Fugate. We have been in support of USAID. The urban 
search and rescue teams that deployed the 2 teams that went to 
Haiti are part of the 28 national teams, 2 of which are funded 
by both FEMA and USAID. So these teams went, we provided 
support to USAID in mobilizing those teams. We also made 
available all of our capabilities.
    However, Japan did not----
    Ms. Norton. The teams came from Fairfax? Were they----
    Mr. Fugate. California and Fairfax. Yes, ma'am.
    Ms. Norton. Yes.
    Mr. Fugate. But these are part of the 28 urban search and 
rescue teams that are funded by FEMA. But the two teams that 
went are also supported by USAID, and are primarily identified 
for international response.
    In addition to the response there--and again, we had no 
requests through USAID for any more assistance to Japan 
itself--we did support U.S. EPA in deploying additional 
radiation monitors as part of RADNET, particularly in the 
territories where there were not existing stations. We used our 
authority under the Stafford Act to provide that assistance to 
help deploy those to make sure that the territorial islands had 
monitoring, and we supported that.
    And we have been in a participatory mode in this event, 
both learning the lessons of the tsunami, earthquake, and 
nuclear power emergency. But other than those items, we have 
not provided direct assistance to----
    Ms. Norton. Well, that is the kind of assistance I know you 
often do provide when there is a hazard or catastrophe in a 
foreign country.
    It seems--those teams are all back home now?
    Mr. Fugate. Yes, ma'am. They are all back. In fact, the 
California team got their equipment back so they are back up 
for deployment. And I didn't see the status today, but I think 
the Virginia team is merely awaiting their----
    Ms. Norton. Well, I noticed that the Virginia team came 
back rather quickly. Was that because of concern about a 
nuclear hazard?
    Mr. Fugate. Unfortunately, the answer is not that. It was 
that the search was moving into recovery phase. They did not 
feel that there was going to be much more opportunity for 
rescues. And since those teams are primarily designed to do 
rescues and not body recovery, the Government of Japan asked 
that the teams be released and sent back to the U.S., while 
they continued recovery operations.
    Ms. Norton. Actually, that is reassuring. Mr. Weber, one 
last question--this is a question for both of you, because I 
know that, Mr. Fugate, that you are about to undertake in May a 
much-discussed national exercise at--near the New Madrid fault 
line in the center of the country, south center of the country.
    One, are you, Mr. Weber, participating in this national 
exercise?
    Mr. Weber. Absolutely.
    Ms. Norton. Are there any nuclear plants located near this 
particular fault line? What are the States, again? Tennessee? 
What are the States?
    Mr. Weber. Ten States, right?
    Mr. Fugate. Yes. Basically from Mississippi north through 
Illinois, across Arkansas, back over to Tennessee. When we 
looked at this exercise, it is based upon the historical event. 
So we are using the event that occurred in 1811/1812, was a 
major shock and then several major aftershocks in the area of 
impact, based upon USGS data that would indicate where we would 
see shaking and damages occurring across--it's about eight 
States that would be seeing damages.
    There are reports that we could actually have shaking 
motion and impacts outside that area, but it would not result 
in significant damages.
    Ms. Norton. Well, in those 10 States, is there any--are 
there any nuclear plants located along that fault line?
    Mr. Weber. Yes, there are. And in addition to nuclear power 
plants, there is also a large nuclear facility, such as the 
Paducah gaseous diffusion plant, and there is a conversion 
facility in Metropolis, Illinois.
    Our preparations are to participate fully in the national 
exercise, so that we could gain from the experience, working 
with our partners in FEMA, the States, the local responders.
    Ms. Norton. And, Mr. Chairman, there--the first responders, 
the teams that went from Fairfax and California, might well be 
informative to us. I know we, ourselves, heard from the teams 
that went to Haiti, to see what they could tell us about what 
would happen if there were an earthquake in Haiti.
    Mr. Weber, I go back again to fault lines and construction 
along fault lines. Are you constructing along fault lines 
because you really don't have any alternative? Knowing that it 
is a fault line, knowing that none of us can know when the 
fault line will prove disruptive, what leads you to construct a 
nuclear facility, in particular, along a fault line? Do you 
look at other options?
    Mr. Weber. Absolutely.
    Ms. Norton. Well then why, for example, would a fault line 
location be chosen?
    Mr. Weber. In dealing with faults, we have to distinguish 
between active and passive faults. Passive faults may have been 
active millions of years ago, but are no longer considered 
active.
    Ms. Norton. OK, I am interested in the active ones.
    Mr. Weber. The active ones you would obviously not try to 
site a nuclear power plant or other large nuclear facility on 
top of that fault. But if you were siting a facility, for 
whatever reasons, and a fault were active and nearby, you would 
take that into account in the design of the facility, such 
that----
    Ms. Norton. No, I am asking, in those instances, have you, 
in fact, decided to build or allow a nuclear facility to be 
built on a fault because there was no other alternative.
    Mr. Weber. I am not aware of those instances. I do know, 
for example, at the Diablo Canyon nuclear power station in 
California, it was discovered during the course of the site 
investigation that there was a large fault nearby, the Hosgri 
fault. And that fault was specifically taken into 
consideration, so that we could have assurance that that 
facility, if there were an earthquake along that fault, that 
the Diablo Canyon nuclear power----
    Ms. Norton. So what would you do in that case that you 
wouldn't do if a facility were not located on a fault?
    Mr. Weber. You would add stiffening to certain parts of the 
plant, so that if there were seismic motion, that the plant 
would be safe. You could stand off the fault, so that if you 
had subsidence along the fault, that it didn't disrupt critical 
components in the nuclear power plant. So, there are a variety 
of things that are taken into consideration.
    I think the point that is to be made is there are faults 
throughout the United States, and we need to take that into 
account, because we do not want to have a situation where we 
are surprised by a seismic event that causes damage to a plant. 
And that is the same design philosophy that we employ for 
flooding, for tsunamis, for tornadoes, for hurricanes.
    Mr. Denham. Thank you. And do you want to do a third round 
of questioning?
    Ms. Norton. No, no, Mr. Chairman. I just want to say that I 
have no--I don't feel any more reassured by Mr. Weber's 
testimony than before. I don't know, for example, whether there 
are precautions that are taken along faults here that were not 
taken in Japan.
    I do think, Mr. Weber, that when you are finished your 
review, questions like that, the difference between the 
precautions you say are taken along our faults, and what was 
taken in Japan--and I tell you the reason I am interested. 
Japanese aren't stupid. They are among the very best in 
preparing for just such catastrophes. They are located--if you 
look at the location of Japan, you will understand something of 
the Japanese people.
    Because when you have as vulnerable a location as they do, 
as a set of islands in the middle of a part of the world that 
sees tsunamis, and you have to build--and in their case, have 
to build--nuclear plants, and you have the level of technology 
that the Japanese have, among the highest in the world, you, it 
seems to me, are the standard that everybody ought to look to. 
And I hope that in doing your review, you are at least 
comparing yourself with the Japanese.
    Thank you very much, Mr. Chairman.
    Mr. Denham. Thank you.
    And before we go to the next panel, I just want to clarify 
a couple things. I still do not think that Ms. Norton's 
question has been answered sufficiently. So let me pull out 
this map here.
    Realize that your standard answer is that we have got 
faults everywhere. I get that, but we have red areas here. 
Highest risk areas along the coast of California, Oregon, and 
Washington: are we planning on building any new nuclear plants 
there?
    Mr. Weber. At this point we do not have any applications 
for new nuclear power plants in those locations.
    Mr. Denham. How about the Madrid area, the red area there?
    Mr. Weber. No.
    Mr. Denham. OK. So any of the high-risk areas, do we have 
any plans?
    Mr. Weber. Most of the construction that is going on now or 
as planned is in the southeastern United States, and with some 
in the mid-Atlantic.
    Mr. Denham. Thank you.
    And as far as the current facilities that we have up and 
running today, I went to school real close to Diablo Canyon. I 
mean that facility must be 40 years old, 50 years old. Here we 
had in Japan a state-of-the-art facility. You know, I believe 
that that was probably the most modern----
    Mr. Weber. No, sir, I am sorry. Those plants are about 40 
years old. Fukushima Daiichi Unit 1 is approaching its 40th 
anniversary.
    Mr. Denham. So similar technology?
    Mr. Weber. Similar technology.
    Mr. Denham. Similar precautions?
    Mr. Weber. Yes.
    Mr. Denham. Are there things that we would do now to 
upgrade San Onofre of Diablo Canyon or others after seeing what 
has happened in Japan? Are there new construction, new 
architecture that we would want to go in and update those 
facilities?
    Mr. Weber. It is difficult to compare what our regulatory 
program has required over the years and how it is implemented 
versus what has been done in Japan. I will say that one of the 
reasons why we have been involved in our response is to insure 
that we learn from the Japanese experience, and we are 
constantly asking ourselves how would we cope with this 
situation in the United States.
    We have identified a number of features that are present in 
the nuclear power plants in the United States that we are not 
aware of were implemented in Japan, and those are the items 
that would be relied on to ensure that should such a 
catastrophe occur in the United States, that the nuclear power 
plants remain safe.
    These are things like supplemental emergency power that we 
have in the United States. We have diesel driven pumps. We have 
required our licensees that operate the nuclear power plants to 
take additional measures, particularly since 9/11, so that 
regardless of what event may occur, that they are in a more 
safe configuration, and they could cope with these kind of 
catastrophes.
    Mr. Denham. And I assume there is some type of risk 
assessment being done in light of what has happened in Japan.
    Mr. Weber. Yes, sir.
    Mr. Denham. And you would be able to provide this committee 
with that risk assessment and the recommendations you would 
have for each of those facilities?
    Mr. Weber. Absolutely.
    Mr. Denham. Thank you.
    And just to follow up, Mr. Hubbard, I want to make sure I 
understood your answer correctly. We have in actual disaster, 
we have a forest fire that takes out the entire fuel on the 
ground floor, leaves behind all of these trees that now are in 
the dying process. Before we see a second disaster, before we 
see a second forest fire, my understanding from your answer, 
what I heard from you was that the environmental review process 
would not be sped up. There would not be anything to provide 
local loggers the opportunity to come in and log those trees 
quickly and maybe actually get some economic impact to the 
local community and to the Forest Service and voice a second 
disaster.
    There is nothing in place today that would expedite that 
permitting?
    Mr. Hubbard. There are several possibilities, and I will 
follow up with a better answer, but we often run into the 
environmental challenges that stop those activities, and that 
is still at play, and we have not eliminated that issue.
    Mr. Denham. Do you have recommendations on risk assessment 
that would say if we do not come in an log these, not only are 
we going to not see the economic impact, but we are at risk of 
another disaster?
    Mr. Hubbard. With every fire we assess that risk, and we 
deal with the emergency restoration that follows any fire. 
Before it even is controlled we start, and that lasts for up to 
a year following to take care of what we think might still pose 
a risk to communities, in particular.
    But in terms of salvaging of what's standing burned dead 
trees, that falls into a different category, and we have to go 
through our clearance processes.
    Mr. Denham. I mean, I guess I just find your answer 
unacceptable. I understand that we all want to be good stewards 
of the environment, but at a certain point human lives are at 
risk, and if we have already had one natural disaster and know 
specifically that the risk has greatly increased and could see 
a second natural disaster, why would we not expedite the 
process and reduce our risk of having a second national 
disaster?
    Mr. Hubbard. We would for sure expedite process in and 
around communities to protect communities, but on large scale, 
50,000 acre fires, we would not deal with the entire landscape 
that way. We would deal with the areas immediately adjacent to 
those communities, and we would expedite that process.
    Mr. Denham. And expedite it with quick permits and bring in 
private industry if we needed to?
    Mr. Hubbard. Yes.
    Mr. Denham. Thank you. Thank you very much.
    At this time I would like to call on our second panel.
    Mr. Murphy, Director of Grants Management, California 
Emergency Management Agency.
    Second will be Mr. Shimanski, the Senior Vice President of 
Disaster Services, the American Red Cross.
    Third, Mr. Christmann, Commissioner, City Emergency 
Management Agency, St. Louis, Missouri.
    And fourth, Mr. Rash, CEO and Chief Engineer, St. Francis 
Levee District of Arkansas.
    And I ask unanimous consent that our witnesses' full 
statements be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your 
responses to oral to 5 minutes.
    Mr. Murphy, you may proceed.

   TESTIMONY OF BRENDAN MURPHY, DIRECTOR, GRANTS MANAGEMENT, 
   CALIFORNIA EMERGENCY MANAGEMENT AGENCY, ON BEHALF OF MIKE 
   DAYTON, ACTING SECRETARY, CALIFORNIA EMERGENCY MANAGEMENT 
 AGENCY; CHARLES S. SHIMANSKI, SENIOR VICE PRESIDENT, DISASTER 
SERVICES, AMERICAN RED CROSS; GARY A. CHRISTMANN, COMMISSIONER, 
 CITY OF ST. LOUIS EMERGENCY MANAGEMENT AGENCY; AND ROB RASH, 
 CEO AND CHIEF ENGINEER, ST. FRANCIS LEVEE DISTRICT OF ARKANSAS

    Mr. Murphy. Thank you, Mr. Chairman.
    I am Brendan Murphy from the California Emergency 
Management Agency on behalf of Acting Secretary Mike Dayton.
    Thank you, Mr. Chairman and Ranking Member Norton, members 
of the subcommittee. Thank you for allowing me the opportunity 
to provide testimony on how we can work together to improve 
catastrophic disaster response efforts while minimizing 
economic impacts.
    On behalf of the Acting Secretary of the California 
Emergency Management Agency, we have the overarching 
responsibility to insure that California works to prevent, 
prepare for, respond to, and quickly recover from any type of 
disaster that may impact California, whether manmade or 
naturally occurring.
    CalEMA coordinates emergency activities to save lives and 
reduce property losses during disasters and works to expedite 
recovery from the effects of disasters. On a day-to-day basis, 
CalEMA provides leadership assistance and support to State and 
local agencies in planning and preparing for the most effective 
use of Federal, State, local and private sector resources 
during emergencies.
    Chairman Denham, as a representative from California, you 
know how vulnerable California is to disasters, such as fires, 
floods, and earthquakes, and how devastating these types of 
events are to our State and national economies. We have learned 
from our experiences in California that one of the best ways to 
help mitigate the effects of a large scale disaster is to 
invest in preparedness efforts.
    If we focus our investments on disaster preparedness 
efforts, we reduce the devastation of human suffering and 
financial loss in the future. We must invest financial 
resources on the front-end in an effort to insure that our 
infrastructure is secure, that early warning systems are in 
place, and that the public is informed about the potential 
risks and have the tools to prepare themselves and their 
families when a disaster strikes.
    Similar to what Administrator Fugate said, every individual 
has to take the responsibility to help to work as a team to 
respond to an emergency.
    The following are some of the highlights of the efforts 
undertaken by the California Emergency Management Agency and 
our State and local partners in the areas of being prepared.
    We enhanced emergency notification systems. The core 
responsibility of public agencies is to insure that our 
communities are aware of disasters so that individuals, 
families and businesses can take the appropriate and necessary 
actions.
    To that end, we have focused some o four limited resources 
on enhancing and maintaining our ability to alert and warn the 
public during times of emergencies and disasters.
    Specifically, CalEMA operates the California State Warning 
Center, which is staffed 24 hours a day, 365 days a year to 
serve as the official State level point of contact for 
emergency notifications. As you know, Congressman, since you 
funded it while you were in California, the Warning Center 
personnel maintain contact with county warning points, State 
agencies, Federal agencies, and the National Warning Center in 
Berryville, Virginia.
    Through multiple communication channels, CalEMA insures 
that developing emergencies are responded to quickly and 
effectively. Last year our Warning Center staff handled 150,000 
calls, including reports of more than 11,000 hazardous material 
spills and 140 seismic and tsunami events.
    Between January 2009 and December 2010, more than 650,000 
alert and warning notifications were made for 45 major 
disasters to local, State, and Federal agencies and public-
private partners.
    In light of the recent earthquake that occurred across the 
Pacific Ocean but still had significant impacts to California, 
the ability to warn the public regarding seismic events and 
tsunamis remains a concern and a priority. Depending on the 
location of an earthquake, a tsunami has the potential to reach 
the California coast in as little as 10 minutes. Because of the 
potential short time period for issuing a warning and the need 
to identify the areas of the State which may be impacted by a 
surge, CalEMA in partnership with the California Geological 
Survey and the Tsunami Research Center at the University of 
California developed Statewide tsunami inundation maps for 
California. These maps are used by coastal communities to plan 
and coordinate their specific emergency evacuation plans.
    When the tsunami warning was issued on March 11, 2011, 
CalEMA immediately contacted the coastal county offices of 
Emergency Services that were then able to use the tsunami maps 
and their local plans to focus their efforts for response and 
evacuation based on the type of tsunami that was coming at us.
    Local governments have the primary responsibility for 
alerting their residents to impending events. However, as a 
State, we provided Federal grant funds to every county in the 
State so that they could install the telephone notification 
system, such as reverse 911, so that they could rapidly notify 
the people of the county.
    Wise investments in local tsunami warning systems save 
lives and property and mitigate the damaging effects of the 
recent tsunami, but as you know, plans are only as good as the 
actions taken by the individuals who use them, and that is why 
California remains focused on creating a culture of 
preparedness.
    Last week, March 20, 2011, through March 26, 2011, was 
National Tsunami Awareness and Preparedness Week, a timely 
event, and we used that opportunity to promote the importance 
of preparedness and personal responsibility in disaster 
planning.
    Mr. Denham. Thank you, Mr. Murphy. I would ask you to 
summarize your written statement.
    Mr. Murphy. Along those lines, the most important thing 
that we have is the ability to plan, exercise, reinvigorate 
those plans, and do it again. It is that learning. It is a 
culture of preparedness. At the same time we have citizen 
preparedness. We have focused on having outreach, and one of 
the most important things is citizens are prepared and can 
handle themselves, as Administrator Fugate said. That allows 
valuable public resources to be put into the most critical of 
areas at that point in time.
    I yield the balance.
    Mr. Denham. Thank you, Mr. Murphy.
    Mr. Shimanski, I would ask you the same thing, if you would 
summarize your written statement.
    Mr. Shimanski. Yes, sir. Good morning, Chairman Denham, 
members and staff of the subcommittee.
    This is an important issue before us, and we appreciate the 
opportunity to provide some input. The American Red Cross is 
committed to delivering the most effective and efficient relief 
services possible. We do so by working closely, of course, with 
Government and other NGOs and the private sector. Each and 
every day we stand ready to respond to the events ranging from 
hurricanes that can be forecast, to other events such as 
earthquakes and human caused catastrophes that cannot.
    In just a few short minutes I hope to discuss the Red Cross 
structure as well as our partnership efforts and the 
stewardship of donated dollars.
    First, let me explain our structure very quickly. The 
American Red Cross is a nationwide distributed network that 
ensures both local presence as well as national presence during 
larger events. Our facilities and our 60,000 trained disaster 
volunteers are spread throughout the country, which means that 
we are already there when a disaster strikes.
    This is best illustrated in terms of our commitment and 
strong collaboration with government by the memo of agreement 
that we signed recently with FEMA. This agreement has the Red 
Cross now sharing in the leadership of the ESF portion of mass 
care, ESF-6, Mass Care, which includes feeding, sheltering, 
bulk distribution, and family reunification.
    A person in a shelter should not care if the cot they sleep 
on is a FEMA cot or a Red Cross cot. There is plenty of work 
for the whole community.
    The FEMA-Red Cross MOA takes us to the next level of 
coordinating and sharing information. For example, we are now 
sharing more data about available assets, about all sheltering 
activity and about the needs of clients. This will make it much 
faster and will improve service as well as save money.
    I will talk briefly about our partnership efforts. The 
American Red Cross works very closely with many NGOs and faith-
based organizations involved in disaster response, and the FEMA 
MOA codifies our role in leading that. This will have, again, a 
positive impact on the response and a positive impact on cost.
    One key to efficient and effective partnerships is bringing 
partners together in our work, which the FEMA MOA, again, 
speaks to.
    I want to next talk briefly about stewardship. We are, of 
course, funded by donated dollars, and we take our 
responsibility to our donors very seriously, which means we're 
working constantly to increase our efficiencies and reduce our 
expenses. As a result, the American Red Cross is proud to say 
that it spends more than 91 cents on every donated dollar on 
direct relief.
    But we can always be better and we are always looking for 
ways to improve. This means we must put a stronger focus on our 
use of volunteers, be more efficient by optimizing our 
allocation of resources, and be better at sharing data.
    Finally, I want to briefly talk about our preparation for 
the next disaster. A big part of what we do is in looking at 
our performance in past disasters. For example, our 
catastrophic earthquake plans have come from reviews of Loma 
Prieta and Northridge, and they were adjusted some after Haiti. 
Our hurricane plans have been shaped by Hurricanes Gustav and 
Ike. And as Administrator Fugate and others have wisely noted, 
we must view the public not only as clients who need our 
support, but also as a potential asset.
    In conclusion, Mr. Chairman, let there be no doubt that the 
American Red Cross is committed to being as prepared as 
possible for whatever disaster will strike. We are committed to 
improving efficiencies, to partnering effectively, and to 
increasing individual and community preparedness. We stand 
ready to work with our partners to ensure that the country is 
as prepared as possible to respond.
    I thank you for your support, and I am happy to address 
questions when the time comes.
    Mr. Denham. Thank you, Mr. Shimanski.
    Mr. Christmann.
    Mr. Christmann. Good morning, Chairman Denham, Ranking 
Member Norton, and distinguished members of the subcommittee.
    My name is Gary Christmann. I am the Commissioner of the 
St. Louis City Emergency Management Agency under the Department 
of Public Safety. I am a member of the U.S. Council of the 
International Association of Emergency Managers.
    I am honored and appreciate the opportunity to testify 
today from the perspective of a local emergency manager. On 
behalf of the Nation's local emergency managers, I would like 
to thank the committee for your support of the emergency 
performance grant, the vital role the committee played after 
Hurricane Katrina to strengthen the Federal Emergency 
Management Agency in the post Katrina Emergency Management 
Reform Act.
    We need strong emergency management on the local level. We 
recognize that all events start and end at the local level. 
However, we also need strong partners at the State and Federal 
level for those events that go beyond our capabilities.
    The city of St. Louis is 62 square miles made up of 
residential area, industry, business, transportation. We have 
three Major League sporting teams. We have five hospitals, 
which two of them are pediatric trauma centers, and we are the 
third largest inland port in the Nation.
    As a local emergency manager, I have the overall 
responsibility to coordinate a comprehensive emergency 
management system addressing all hazards with key stakeholders 
at all levels of government, volunteer agencies, private 
sector, hospitals, medical facilities, faith-based 
organizations, schools, colleges, and universities, utility 
companies, our residents, and all others.
    My responsibility includes planning for events we have most 
frequently, such as tornados and flooding, but also those high 
consequence, such as a catastrophic earthquake involving the 
New Madrid fault.
    Planning for an earthquake has many challenges due to the 
uncertainties which influence our response and recovery, such 
as the magnitude, the location of the epicenter, the time of 
day, the downtown activities, and the season.
    We recognize that a catastrophic earthquake can cause 
widespread damage, power outages, mass casualties, mass 
fatalities, and our missions would include an ongoing public 
information, continuity of government, mass shelter and care, 
search and rescue, debris removal, security operations, mass 
casualty and fatality management, volunteer management, to 
include our citizens' emergency response teams, just to name a 
few.
    The only way that we can successful in a response to and 
recover from an event of the magnitude and complexity is to 
have a fully functional and test system of emergency management 
in place. The emergency management performance grant plays a 
pivotal role in maintaining that system.
    The city of St. Louis will be participating in the national 
level exercise in May of 2011. This exercise scenario is based 
around an earthquake on the New Madrid fault line. We will use 
the lessons learned from this exercise as well as those from 
the tragic situation in Japan to strengthen our plans and 
capabilities.
    In summary, Mayor Francis Slay, the city of St. Louis, and 
the Nation's local emergency managers have appreciated the 
support of this subcommittee in the past in building a strong 
emergency management system at the Federal, State, and local 
level. The investment of the emergency management performance 
grant is small, given the potential return and creating a 
strong State and local emergency management system which 
handles a large majority of disasters.
    I would be happy to answer any questions you may have, and 
I appreciate your time.
    Mr. Denham. Thank you.
    Mr. Rash.
    Mr. Rash. Yes, sir. Thank you very much. I appreciate the 
opportunity to be here this morning.
    There are numerous items I would like to speak about. If 
you would allow the record to be left open for additional 
testimony submittal, I would appreciate that.
    I would like to limit my comments just to three key points: 
one, to utilize local responders and local recovery efforts 
first; two, to improve and remove the traditional bureaucratic 
cycle, which has obviously been mentioned here this morning; 
and food protection is a preemptive strike, and I will get to 
that in a moment.
    It is vital for us to utilize those local first responders. 
During Hurricane Katrina, a Levee Board in Mississippi 
responded through the governor's office prior to landfall of 
Katrina and got themselves prepared, brought fuel and other 
items south to the Gulf Coast and Mississippi Gulf Shore, and 
their response was very welcome.
    These local responders, like the St. Francis Levee District 
of Arkansas, can be utilized along with other drainage 
districts, other small districts that are local, that can be 
utilized more easily, more readily available. But it has to be 
through coordination with local, State, and Federal efforts. 
There is no question about that.
    Mr. Fugate spoke about being prepared on a local level and 
that the Federal Government could not be expected to come in 
immediately because there were criteria in place or not in 
place to allow that. But the local responders are absolutely 
necessary, and there are some prepared. Local Levee Boards like 
myself would be a part of that immediate response.
    Second, I would like to talk about the traditional 
bureaucratic process that is in place. The permitting process 
is quite difficult. The NEPA, the National Environmental Policy 
Act, the permitting process has become so cumbersome that it is 
difficult to work through on a local level or the State level 
to get quick responses in minor disasters.
    It is very difficult. Hurricane Katrina was a good example 
of that, where the NEPA process was streamlined. It was 
streamlined so U.S. Army Corps of Engineer projects could be 
done much quicker and without the red tape.
    I know that there were questions about the process, but the 
NEPA process is quite cumbersome. It is very difficult, and the 
traditional bureaucratic layers have got to be better 
distributed or more easily cut through. I think there are a 
number of disasters that proved that.
    One thing in particular is the U.S. Army Corps of Engineers 
and the creation of the Homeland Security Agency and 
consequently with the Federal Emergency Management Agency. 
Under them is the Corps of Engineers, the U.S. Army Corps of 
Engineers.
    In flood control we have utilized the Corps of Engineers 
for disaster protection or disaster response. They have been 
placed in Homeland Security under FEMA, and I understand that.
    However, the Corps has specific qualities that can be 
utilized, and I would ask that it be reevaluated as to where 
the Corps falls under that hierarchy in Homeland Security 
Agency.
    And last, I would like to talk about all of the disasters. 
There is no question there are numerous disasters we fall prey 
to at all times, but flooding is one that we can prevent. 
Flooding is one we can work on.
    The Mississippi River and Tributaries Project is a project 
in the lower Mississippi River Valley from Cairo, Missouri, 
south to New Orleans, and this is an outstanding example of the 
work of the local people, the work of the U.S. Army Corps of 
Engineers, and Congress to properly protect people from 
flooding events. This is one emergency that can be prevented. 
Instead of the reaction, it can be prevented, and the MR&T is 
an outstanding example of that.
    I would ask that this committee please look at the MR&T. I 
realize that it was a preventive mechanism. It was flood 
control at its best, and the U.S. Army Corps of Engineers has 
got a lot to be proud of and Congress as well, and 120 years 
ago, districts like myself began building levees. The U.S. Army 
Corps of Engineers came and utilized those levees. They built 
the 1928 Flood Control Act and began the MR&T.
    That project is not complete, but it did survive, and it 
has protected millions of people in the lower Mississippi River 
Valley. I would ask that we look at that because FEMA, under 
their current guidelines and direction, is expanding their 
national flood insurance program, and in doing so, they are 
undermining projects just like the MR&T by providing or placing 
areas under a shaded Zone X and other different criteria or 
other different areas of flood prone areas. They are being 
redefined.
    And areas that have been properly protected for 100 years 
are now being redefined in a flood hazard area. This is 
terrible for economic development, but it also undermines the 
very protective structures that have been in place and for 83 
years have protected from disasters.
    So I would ask that you please look at that. Flooding is a 
disaster that can be prevented, and you have an outstanding 
example of that being the case in the Mississippi River and 
Tributaries Project.
    Mr. Denham. Thank you, Mr. Rash. Thank all of you for your 
testimony.
    Starting the first round of questioning, Mr. Murphy, 
obviously I am very familiar with the State's response system, 
but how does that interface with the Federal system?
    Mr. Murphy. Absolutely. So one of the unique things, I 
think, in California is that we have a really strong 
relationship with our regional administrator. In fact, the 
regional administrator about 15 years ago worked at the former 
Office of Emergency Services in California, and Nancy Ward is 
our Regional Administrator. We know her well. We have known her 
very well.
    But ultimately it is a personal relationship that saves 
lives and property, and it is knowing that we can rely on the 
FEMA region to be there and to be the coordinating effort for 
the resources that the Federal Government brings to bear. I 
think that is one of the important factors to remember.
    You know, as far as responders go, specifically local 
responders are the first responders. Those are the people on 
the ground, and in that State and especially the regional FEMA 
role is to be able to bring to bear the Federal resources that 
come from the Federal Government and can help those first 
responders and then save lives first and property second.
    Mr. Denham. And from a communications standpoint, the State 
system interfaces with the Federal system?
    Mr. Murphy. Yes. We test that with an annual exercise, as 
you know, and in that exercise, we continually test form 
different parts of the State that ability to interface with 
FEMA Region 9 and specifically order resources from the Federal 
Government.
    And I think so far, you know, there are hiccups along the 
way, but that is part of the exercise and planning model. We do 
it in an exercise and learn from it and make it better the next 
time.
    Mr. Denham. And as far as making it better the next time, 
you know, given what has happened in Japan with the huge 
earthquake, with the challenges that we have in California, I 
have certainly seen especially from my old Senate seat, you 
know, we have had flooding; we have had challenges where we 
have not seen immediate reaction from FEMA.
    Are we prepared as a State to work with the governor in 
making sure that if there is a disaster, when the next disaster 
hits that we are requesting FEMA involvement quickly?
    Mr. Murphy. Yes, sir, and absolutely we request FEMA 
involvement on a very fast basis for the majority of things, 
and I will say over the last few years, FEMA has been very, 
very responsive on more recent disasters, and as you say, that 
may have not historically always been the case, but the 
relationship is such that right now, for example, in the Harbor 
up in Del Mar County after the Tsunami, we had teams within 3 
days on the ground. So, I mean, it happened on Friday and 
Monday afternoon we had teams surveying the damage. They were 
teams of CalEMA as well as FEMA staff. So, yes, the 
coordination at this point.
    To your point on catastrophic incidences, we have done 
numerous plans in both major urban area centers, the Bay Area 
as well as Los Angeles, and the catastrophic idea is trying to 
get the best plan for the scenario that as Administrator Fugate 
said, nobody wanted to think about a few years ago.
    And so in doing that, we have engaged everybody from our 
FEMA regional partners and actually DHS Headquarters all the 
way down through nonprofits and the american Red Cross at that 
local level to try and talk about what can you really provide 
in certain scenarios of a catastrophic incident.
    Mr. Denham. As you heard earlier, obviously floods 
especially this year are a huge concern in California as well 
as elsewhere around the Nation, but on the same level, forest 
fires. How closely does CalEMA work with the Forest Services to 
plan and prepare for wildfires?
    Mr. Murphy. We do work very closely with the Forest 
Service. Our Fire Branch at CalEMA had an annual contract and 
contract reviews for maintaining the fire response areas and 
some joint and shared areas and the interfaces between mostly 
State public lands as well as Federal public lands.
    And so we do coordinate regularly. As you heard earlier, 
there are 16,000 fire fighting resources for the entire country 
at the Forest Service, and as you know, we have several hundred 
thousand fire fighters inside the State of California. Clearly, 
we tend to help wherever we can, and especially where we think 
that lives and property can be evaluated.
    We have worked through differences of opinion in the past, 
and I thing it has built, on the learning side, it has built a 
better relationship moving forward in the last few years.
    Mr. Denham. My concern, again, is risk assessment. We 
oftentimes do not plan well or we ignore the huge risks that we 
may have over environmental policies. I think we have got to 
have balance between the two, especially in the case where we 
have, like I described earlier, we have a forest fire, and now 
we are stuck with a situation with trees that are, you know, 
dying. I mean, they have lost their foliage and are dying, and 
we do not move quickly and another fire could resume.
    Mr. Murphy. I think, as you know, on State lands we worked 
to solve that problem in the last 7 or 8 years, and I think we 
have had some very successful resolutions in working with the 
California Environmental Protection Agency, as well as the 
resources agency inside California to make sure that we can 
effectively limit future losses to properly reinvigorate those 
lands, whether it be through cutting or through replanting, et 
cetera.
    I cannot speak for the U.S. Forest Service, but in that 
role, I mean, I would think from a State perspective we have 
done it on the State side, and I do not think we have been as 
successful in trying to help the Forest Service get to it.
    Mr. Denham. Thank you.
    Mr. Shimanski, what do you see are the major challenges if 
a massive 9.0 type earthquake hit California or States along 
the New Madrid fault?
    Mr. Shimanski. Well, let me first thank you, Mr. Chairman, 
and let me start by saying I think the national level exercise 
in May, which everybody has been referring to as the upcoming 
exercise, but in fact, State agencies, FEMA and others have 
been engaged in planning efforts for many, many months, have 
already had resource allocations worked up, and I think that 
event will teach us a great deal.
    I think the challenges if something like what happened in 
Japan were to occur along your coast, the West Coast of 
California, one of the greatest challenges will be the 
communication to the affected communities, and communicating, 
which is not a responsibility that the Red Cross holds for the 
sector, but communicating as to where the shelters are so that 
our shelters are in safe areas where people can get to safely, 
and that the communities know where those shelters are.
    We have created a national shelter system that tracks our 
56,000 shelters throughout the United States, and it includes 
an outward facing Web portal and now a downloadable app so that 
people in the affected communities can find the closest Red 
Cross shelter in their community so that they can know exactly 
where to go and so that it is easy for them to get there.
    I should mention that in Japan, the maximum number of 
people that were being sheltered was 500,000. That number has 
now decreased to, I believe, below one-quarter of a million.
    Post Katrina the American Red Cross had done a great deal 
of work to build up and increase----
    Mr. Denham. Could you repeat that?
    Mr. Shimanski. In Japan, the number of people sheltered, 
the maximum number of people sheltered from the event that 
recently occurred, the numbers I have seen are roughly half a 
million, and that number has now decreased to roughly one-
quarter million, meaning that some of the people initially 
sheltered have found other facilities or other places to stay 
besides the shelter of the Red Cross and other shelter 
providers.
    Since Katrina, the American Red Cross has built its 
capacity. Now, with our partners, we can feed as many as a 
million meals in any given day. So I think we will learn a 
great deal from the New Madrid exercise, but I also think that 
if something happens along the lines of what happened with 
Japan, I think the whole community approach that Craig Fugate 
is bringing to FEMA and the philosophy of bringing the public 
in as a resource will certainly help. That's where much of our 
exercise and our focus has been, utilizing spontaneous 
volunteers.
    I will finish with one last thought. Taking Hurricane 
Katrina as an example, when Katrina happened, we had roughly 
24,0000 trained disaster responders in our American Red Cross 
database, and yet we deployed ten times that figure, 234,000 
volunteers. In other words, we had an intake of nine 
spontaneous volunteers for every one we had trained, and we 
were able to put them to work.
    That will be key if an event like what happened in Japan 
occurs on U.S. soil.
    Mr. Denham. And what would happen if we had more than one 
catastrophe at the same time in separate parts of the country? 
Would the Red Cross be prepared to mobilize and respond to two 
major catastrophes?
    Mr. Shimanski. Thank you. It's a very good question.
    First off, I mentioned that we had roughly 24,000 trained 
disaster volunteers pre-Katrina. That number has now grown to 
60,000, and again, these are individuals trained in communities 
all throughout the United States.
    Much of what we do is built around multiple events 
happening at the same time, again, much like Administrator 
Fugate addressed. That said, if there is a challenge to the 
American Red Cross response to multiple disasters occurring 
either in short succession or at the same time, the one 
challenge to the Red Cross would likely be in the area of 
charitable contributions. The public is very generous when a 
major event occurs. The generosity can at times decline when 
another big event occurs shortly thereafter. Donors, very 
generous donors, may have a sense of ``I just gave to the Red 
Cross.'' So if we have one concern about multiple activities 
happening in a short time table, it is whether there will be 
the charitable support that the Red Cross needs to do the work 
it does.
    Mr. Denham. And from a funding perspective, I mean, going 
through a recession, are you seeing budgetary challenges?
    Mr. Shimanski. We are. We finished the last fiscal year 
with a very modest surplus, but we are facing some challenges 
this year that will likely result in more re-engineering, more 
efficiencies and optimization as we look at a revenue that is 
projected to decrease.
    Mr. Denham. So what happens if you are running and you are 
faced with multiple disasters?
    Mr. Shimanski. Well, we are fortunate in that the American 
public has historically been generous, and the contributions 
that we receive are sufficient for us to respond to the 
disasters.
    The times when we are not able to are generally at times 
when there is a Presidential declaration, and at that point we 
can work with FEMA; we can work with our State and other 
partners to see what other funding opportunities might be 
available if it is a major disaster and charitable 
contributions have not been sufficient.
    Mr. Denham. Thank you.
    And, Mr. Christmann, from a local perspective on the 
grants, dealing with the same area, emergency management 
performance grants provide assistance to States and local 
communities to help prepare and plan for disasters. If those 
were eliminated or no longer focused on the all hazards 
approach to disasters, how would that impact the city of St. 
Louis?
    Mr. Christmann. It would impact our capability to 
coordinate our local resources, our regional resources, and 
have that partnership with our State and Federal partners. It 
would also impact our outreach programs to do public 
preparedness, to get our citizens, as a number of the panel 
have talked about, that having our citizens prepared is key to 
the response, knowing that they are going to be impacted. The 
locals are going to be impacted due to the catastrophic event.
    And resources will come, but they will take a little while 
to get into those impacted areas, especially looking at a New 
Madrid earthquake where multiple States, multiple urban areas 
will be involved. That coordination is very key on the local 
level to insure that we have the best picture of where our 
resources are, who our partners are, what they can provide to 
us, and then build that instant management capability to bring 
those all to bear on that disaster itself.
    Mr. Denham. Thank you.
    And we are short on time, but I did want to get one more 
question in. The Vice Chair of this committee, Mr. Crawford, 
had some great things to say about you, Mr. Rash, but one of 
the concerns that he had was FEMA de-certifying levees, and if 
you could just explain that in greater detail.
    Mr. Rash. Yes, sir. The process for certification of levees 
has changed dramatically in the last 5 years, and there are 
numerous levees across the country that are being de-certified 
under new standards. Given little or no time to bring these 
areas up to this new standard, it has been placed on the backs 
of the local people to bring these up to standard and not given 
any time for implementation.
    The levees that I maintain with our district are certified 
under these new standards. However, the designation behind 
these levees, even at the top certification given now by FEMA 
and the Corps of Engineers, shows a shaded Zone X, which 
designates an area that has not been shown in an historical 
flood hazard area and now shows it in a flood hazard area. It 
shows it as a shaded Zone X.
    As I mentioned in my statement, with the MR&T and the 
projects like those, our levees are being undermined just by 
the fear placed on the new designated areas and our lenders are 
requiring flood insurance to be purchased.
    We have not had any type of levee breach in 83 years in our 
area. There are numerous levees that do need to be brought up 
to standard. I would ask that we not handicap the areas that 
are properly protected because of other areas that are not 
meeting these new standards.
    I understand the new standards, and there area lot of 
things in the new standards that I think are good. I think it 
is good and everybody here has spoken about taking a new look. 
When we find a disaster, we encounter a disaster, we learn form 
it and we move on. But we do not want to miss the point.
    I fear that a lot of the historical design, the 
maintenance, the construction of good flood control projects 
across the country are being undermined through this new 
certification process and providing false fear in a lot of 
areas. That is not true in all areas, and I understand that, 
but there are areas that are properly protected that are being 
shown as a newly designated flood hazard area, and it is not a 
proper designation.
    I would ask that we take a step back and that we look at 
this process, that we look at the certification process and 
that the local people, working with the State through FEMA, 
through the Corps, through the Congress, to upgrade these 
levees instead of downgrading them through needless flood 
insurance.
    Mr. Denham. Thank you, Mr. Rash.
    Mr. Rash. Thank you.
    Mr. Denham. Mr. Crawford tells me that you have got a great 
deal of information in this area. This is something this 
committee will be looking into, and we would ask you to provide 
that information back to the committee.
    At this time, I would ask unanimous consent that the record 
of today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that during such time as 
the record remains open additional comments offered by 
individuals or groups may be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for your 
testimony today. If no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 11:59 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
